September 23, 2021
Danny Bickell
Deputy Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re: AMN Services, LLC v. Clarke, No. 21-296
Dear Mr. Bickell:
I am counsel for respondents in the above-referenced case. On August 26, 2021,
the Court docketed a certiorari petition in this case, and on September 16, 2021, the Court
requested that respondents file a response to the petition. Unless extended by the Court,
the response would be due on October 18.
Pursuant to Rule 30.4, I respectfully request an extension of 30 days, to and
including November 17, 2021. I have several pressing obligations during the upcoming
weeks, including a previously scheduled vacation. An extension will allow me to meet
these obligations and also to file a response that adequately addresses the points raised in
the petition. In addition, counsel for petitioner indicated in a September 14 letter to the
Court that several amicus briefs will be filed in support of the petition. The extension will
also allow time to consider these additional briefs.
For these reasons, I ask that a 30-day extension be granted. Thank you for your
attention to this matter.
Sincerely,
Allison M. Zieve
Counsel for Respondent
Cc: Paul Clement, Counsel of record for Petitioner

